                                                                                                   Executive Summary
                                                                                                Report No. EVAL-09-002
                                                                                                         February 2009

                                       The FDIC’s Guard Services Contract and Controls Over Access
                                       to Facilities

                                       Results of Evaluation

                                       The FDIC is administering its nationwide security guard services contract
                                       consistent with contract cost and performance expectations and is meeting
                                       the contract’s objective of protecting FDIC employees and FDIC property.
Background and Purpose of              Based on our observations, the contract security guards were generally
Evaluation                             attentive and acted in a professional and courteous manner.
Physical security of FDIC
                                       In 2007, the FDIC procured an independent physical security assessment
facilities is important to achieving
                                       of its headquarters facilities. The resulting Security Assessment Report
the Corporation’s mission.
                                       concluded that the FDIC had implemented a well-planned security
Recent turmoil in the financial
                                       program. The assessment also made a number of recommendations related
services industry and the FDIC’s
                                       to physical security procedures and staffing. The FDIC has addressed or is
increasing role in resolving the
                                       studying several of those recommendations.
banking crises heighten the need
to ensure that FDIC employees
                                       We concluded that FDIC had negotiated contract labor rates for guard
and facilities are adequately
                                       services that were lower than most offered under the GSA schedule.
protected. The FDIC relies on
private sector guard services at
                                       Notwithstanding, we identified areas where the FDIC could further
headquarters and regional office
                                       strengthen security or could reduce guard services cost without sacrificing
locations to protect FDIC
                                       security.
employees, property, and the
general public. In January 2006,
                                       Recommendations and Management Response
the FDIC consolidated security
guard services into a single
                                       We made five recommendations for DOA’s consideration. Management
contract. In November 2007, the
                                       concurred or partially concurred with 4 of the 5 recommendations and
FDIC awarded a 7-year,
                                       offered an acceptable explanation for not concurring with the one
$74.6 million guard services
                                       remaining recommendation. We will include a range of $2.1 million to
contract to provide nationwide
                                       $5.2 million as funds put to better use in our Semiannual Report to the
physical security services.
                                       Congress associated with one recommendation to improve the efficiency
                                       of guard services. However, management indicated that it may not fully
The Division of Administration’s
                                       achieve these potential savings because of the costs involved in mitigating
(DOA) Security and Emergency
                                       any increased risk that results from implementing the recommendation.
Preparedness Section (SEPS) is
responsible for providing security
                                       We will also be communicating several matters that were not specifically
services for the protection of
                                       related to the objective of our review in separate correspondence to
FDIC personnel, property, and
                                       management for its attention and consideration.
facilities.
                                       Because this report may contain proprietary information and addresses
Our evaluation objective was to
                                       issues associated with physical security, we do not intend to make public
evaluate the extent to which the
                                       release of the specific contents.
Corporation has administered
guard services in a manner that
balances security needs and
efficiency and implemented
adequate controls over access to
FDIC facilities.
